                                                                   U.S. Department of Justice


                                                                   United States Attorney
                                                                   District of Connecticut




                                                     Connecticut Financial Center                  (203) 821-3700
                                                     157 Church Street
                                                     P.O. Box 1824
                                                     New Haven, Connecticut 06510            Fax (203) 773-5376


                                                     January 31, 2003

                                       PRESS RELEASE

       United States Attorney Kevin J. O’Connor announced today that a federal grand jury in

New Haven has returned a thirty-count indictment charging FRANK S. CHUANG, age 61, of

Wethersfield, Connecticut, L-C ASSOCIATES, INC., and L-C ASSOCIATE, P.C., A

CONSULTING ENGINEER, located in Rocky Hill, Connecticut, with thirteen counts of mail

fraud, two counts of wire fraud, and fifteen counts of false claims in connection with federally

funded transportation projects.

       According to the indictment, CHUANG owns L-C ASSOCIATES, INC., and L-C

ASSOCIATE, P.C., A CONSULTING ENGINEER, both of which engineering and construction

services firms with principal offices located at 1960 Silas Deane Highway in Rocky Hill,

Connecticut. The indictment charges that both corporations perform work on federally funded

transportation contracts. The indictment also charges that from on or about January 8, 1995, and

continuing to the present, CHUANG, L-C ASSOCIATES, INC., and L-C ASSOCIATE, P.C., A

CONSULTING ENGINEER engaged in a scheme to defraud the state transportation agencies of

Connecticut, New York, and Massachusetts, as well as the Federal Highway Administration, by

submitting false and fraudulent invoices. Specifically, the indictment charges that CHUANG

falsely and fraudulently represented that corporate employees had performed specified work,

when in fact they had not. The indictment further alleges that the defendants inflated the

corporations’ overhead rate, and thus their reimbursement from the state transportation agencies,
by including on the corporate payrolls people who had not, in fact, performed services for the

corporations. The indictment also alleges that the defendants further inflated the corporations’

overhead rate by failing to disclose certain information to their auditors.

       The indictment alleges that the defendants committed mail fraud by causing prime

contractors and state transportation agencies to mail reimbursement checks to the corporations,

and that they committed wire fraud by causing certain faxes to be sent, all as part of the scheme

to defraud. The indictment also charges that the defendants made and caused to be made false

claims to the United States Department of Transportation, by submitting inflated invoices.

       U.S. Attorney O’Connor stressed that the indictment is only a charge and not evidence of

guilt. The defendants are entitled to a fair trial in which it is the Government's burden to prove

guilt beyond a reasonable doubt. If convicted, CHUANG would face on each of the charges up

to five years in prison, followed by up to three years of supervised release, and a fine of up to

$250,000. Each of the corporations would face a fine of up to $500,000 on each of the charges.

       U.S. Attorney O’Connor stated, “The integrity of federally funded programs is a vital

concern of the United States Attorney’s Office. Fraud cannot, and will not, be tolerated.”

       The case is being investigated by the United States Department of Transportation, Office

of the Inspector General, Office of Investigations; the Connecticut Department of Transportation;

the Federal Bureau of Investigation; and the United States Department of the Treasury, Internal

Revenue Service, Criminal Investigation. The case is being prosecuted by Assistant United

States Attorneys William J. Nardini and Maria A. Kahn
